Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




     Child Support Enforcement
      State Disbursement Units

        Sharing the Implementation
         Experiences of Six States




                     JUNE GIBBS BROWN
                     Inspector General

                         AUGUST 2000
                        OEI 06-00-00041
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-
452, is to protect the integrity of the Department of Health and Human Services
programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary
of program and management problems and recommends legislative, regulatory, and
operational approaches to correct them.

                        Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the
Office of Inspector General. It conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the
Congress, and the public. The inspection reports provide findings and
recommendations on the efficiency, vulnerability, and effectiveness of departmental
programs.

OEI's Region VI prepared this report under the direction of Chester B. Slaughter,
Regional Inspector General and Judith V. Tyler, Deputy Regional Inspector General.

Principal OEI staff included:

DALLAS                                      HEADQUARTERS

Blaine Collins
                             Joan Richardson, Program Specialist

Ruth Ann Dorrill

Clark Thomas, Ph.D. 

Scott Whitaker

J’nette Oshitoye

Nancy Watts

Lisa White

Jennifer Kahende

Patricia Martin



    To obtain copies of this report, please call the Dallas Regional Office at 214-767-3310.
    Reports are also available on the World Wide Web at our home page address:

                              http://www.dhhs.gov/progorg/oei
                        EXECUTIVE SUMMARY

PURPOSE
         To describe States’ experiences in developing and operating State Disbursement Units
         (SDUs), to highlight strategies they employed to deal with difficulties encountered, and
         to share insights from their experiences with States still implementing or refining their
         SDUs.

BACKGROUND
         Requirements for Centralized State Disbursement Units: Congress requires States
         to process child support payments through centralized State Disbursement Units
         (SDUs). The primary objectives of SDUs are to provide employers with a single location
         in each State to send income withholding payments, and to make payment processing
         more efficient and economical. Federal requirements specify deadlines for SDU
         implementation and standards for operations, and outline areas of State discretion,
         such as the option to employ private contractors. While most States met their
         implementation deadlines, a number of States have yet to fully implement their SDU
         and others continue to refine their centralized procedures.

         Concerns About Implementation: In December 1999, the Office of Inspector General
         (OIG) received a letter from Congressman Bob Clement of Tennessee expressing
         concern about the effectiveness of his State’s new system for collecting and disbursing
         child support payments. In response, the OIG initiated a study of the Tennessee SDU,
         reviewing 16 cases that experienced delayed payments under the new system.
         Additionally, we surveyed all States and undertook an in-depth review of SDU
         implementation in six States.

         Methodology: Information in this report comes primarily from interviews of key
         participants involved in SDU operations in the six focus States, chosen to provide
         variety regarding prior collection and disbursement methods, when centralization
         occurred, and whether contractors are used. We did not verify the accuracy of their
         responses. Rather, our goal was to present the self-reported experiences and
         perspectives of key players who are implementing and operating the centralized units in
         order to facilitate their learning from one another.

FINDINGS

After Problematic Implementation, Our Focus States Now Report They Disburse
Payments Faster and Provide Better Customer Service

         Overall Assessment Managers in focus States generally report improvements in
         payment processing speed and customer service, but also note that most
         improvements were only realized after early implementation challenges were
         surmounted. Respondents report that almost all payments are currently being
         processed within two business days. Additionally, parents may access payment



SDUs: Experiences of Six States                  i                                    OEI 06-00-00041
         information anytime through toll-free automated telephone response systems, and talk
         to live customer service representatives during regular office hours. However, only four
         of the six focus States report providing employers a single location to send all income
         withholding payments.

         Working with Payers and Local Offices To minimize startup problems, most focus
         States conducted extensive planning and preparation, involving State child support
         managers, and local staff and clerks of court who previously processed payments.
         These local offices had a great impact on early implementation, particularly by helping
         ensure the accuracy of case information being transferred to the new SDU database,
         by continuing to process payments for some cases or mis-directed payments, and by
         entering new case information into the SDU database. However, States report having
         problems coordinating with some local processors, severely complicating
         implementation in some areas. States also worked closely with employers and
         noncustodial parents to get payments properly sent to the SDU, and to ensure
         payments included enough information to be automatically credited and disbursed to
         the correct child support case.

         Using Contractors All focus States use contractors to perform some collection and
         disbursement functions, primarily because private companies offered technical
         expertise and labor resources. Managers recommend clearly outlining areas of
         responsibility for contractors, and establishing specific performance criteria prior to
         awarding any SDU contracts. Focus States also accomplish some SDU tasks in-house,
         or through other State agencies, providing SDU managers direct control over these
         functions.

         Implementing Incrementally Five focus States used pilot projects or implemented
         their SDU incrementally, allowing managers to test procedures and equipment, and
         address difficulties before they affected a large number of payments.

         Determining SDU Caseloads Managers report that three focus States chose to
         centralize payment processing for all child support cases, rather than only those
         required by Federal law, because this practice is more efficient and simplifies
         procedures for payers. However, two focus States do not centrally process cases with
         income withholding ordered prior to January 1, 1994, reportedly, because no Federal
         matching funds are provided for processing these cases through the SDU.

         Disbursement Delays and Complexity Despite planning and coordination, all focus
         States reported initial problems in disbursing all payments in a timely manner. Many
         payments received by SDUs could not be quickly credited and disbursed to the proper
         case, primarily because the SDU database, or the payment documents, did not contain
         enough case information to allow an automated match. These payments typically
         required further research, and some were not disbursed until days or weeks after their
         receipt by the SDU. Other payments were inappropriately sent to previous local
         processors, again causing disbursement delays.

         Upgrading Customer Service State customer service units also initially had difficulty
         handling the large volume of inquiries and complaints from parents and employers.
         While focus States typically improved customer service by disbursing payments more
         quickly, and thereby, reducing call volume, some States had to upgrade their telephone
         systems, add new lines, or increase staffing levels of call centers.


SDUs: Experiences of Six States                  ii                                  OEI 06-00-00041
Focus States Continue to Deal with Problem Payments and Cases, and Have Yet to Fully
Utilize Payment Information to Enhance Support Enforcement

         On-going Challenges to Timely Processing Focus States continue to struggle with
         quickly processing a relatively small, but troublesome, number of payments. Focus
         States are challenged to get new case information into their database quickly enough
         to allow timely processing of first payments. Due mostly to human error, some
         payments are applied to the wrong case, creating difficulties as States attempt to rectify
         these errors. SDUs continue to have trouble processing poorly labeled payments, and
         must devote special attention to payers who make payments on multiple cases.
         Additionally, some payments from other States and Federal employers are troublesome
         because of poor labeling or because they are not properly directed to the SDU.
         Managers report educating payers to help ensure timely processing, and encouraging
         the use of electronic payment methods by other States and large employers.

         Exploiting SDU Information to Enhance Enforcement Focus State managers report
         that their SDUs and customer service units generate a great deal of information about
         cases, allowing them to effectively monitor staff and contractor performance. A
         continuing challenge, however, is for States to expand use of this SDU information to
         aid in enforcement of child support by identifying cases with interruptions or changes in
         payments.

RECOMMENDATIONS

FOR STATES

         Centralize Pre-1994 Income Withholding Cases States should process all income
         withholding cases centrally, including those created prior to 1994, thereby providing
         employers with a single location for sending payments.

         Consider Centralizing All Non-withholding Cases States should assess the benefits
         of processing all child support cases centrally, to simplify operations and capitalize on
         automated processing.

         Employ Incremental Implementation States that have not yet fully implemented their
         SDU should consider using pilot programs and other incremental implementation
         methods.

         Promote Use of Electronic Payments States should actively promote the use of
         Electronic Funds Transfer by employers and other payers when practical and
         beneficial.

         Exploit SDU Information to Enhance Enforcement States should develop strategies
         to routinely use SDU payment information to aid in support enforcement.




SDUs: Experiences of Six States                  iii                                  OEI 06-00-00041
FOR THE OFFICE OF CHILD SUPPORT AND ENFORCEMENT

         Encourage Improved Performance by Federal Government Payers OCSE should
         collaborate with States to encourage Federal government payers to improve their
         payment labeling and submission practices.

         Provide Technical Assistance on Interstate Payment Processing OCSE should
         provide additional technical assistance to States to aid in the transmission of payments
         for interstate cases.

         Consider Federal Funding for Processing Pre-1994 Income Withholding Cases
         To help States meet the Congressional goal of providing employers with a single
         location in each State to send all child support payments, OCSE should consider
         proposing legislation which would provide States with Federal matching funds to
         centrally process payments for all income withholding cases, including those created
         prior to 1994.

AGENCY COMMENTS

         The Administration for Children and Families (ACF) agreed with the findings and
         conclusions presented in these two reports. ACF concurred with each of the
         recommendations directed to OCSE and recounted its efforts to assist States with SDU
         implementation. ACF also expressed a desire to collaborate with the OIG in quickly
         disseminating to States the information provided in these reports. ACF comments are
         provided in their entirety in Appendix A.




SDUs: Experiences of Six States                 iv                                   OEI 06-00-00041
                 TABLE OF CONTENTS

                                            PAGE


EXECUTIVE SUMMARY                               i


INTRODUCTION                                   1


FINDINGS

     Overall Assessment of Centralization      3


     Preparation for Centralization            4


     Contact with Employers and Parents       10


     Customer Service                         12


     Payment Processing                       15


     Problem Payments and Cases               21


RECOMMENDATIONS                               24


AGENCY COMMENTS                               26


ENDNOTES                                      27


APPENDIX 

     A: ACF Comments                          28

                                  INTRODUCTION

PURPOSE

         To describe States’ experiences in developing and operating State Disbursement Units
         (SDUs), to highlight strategies they employed to deal with difficulties encountered, and
         to share insights from their experiences with States still implementing or refining their
         SDUs.

BACKGROUND

         In the 1996 Personal Responsibility and Work Opportunity Reconciliation Act
         (PRWORA), Congress required States to centralize collection and disbursement of
         child support payments into State Disbursement Units (SDUs).1 The primary objectives
         of centralization are to provide employers with a single location in each State to send
         income withholding payments, and to make payment processing more efficient and
         economical. Federal law requires that States:

        !	       Implement the SDU by a Deadline of October 1, 1998 or
                 October 1, 1999 for States with Previous Clerks of Court Involvement
        !        Provide Employers with a Single Location to Send Payments
        !        Disburse Payments Within Two (2) Business Days
        !        Process All Payments for a Specified Caseload2
                 (With Discretion to Include All Cases)
        !        Provide Payment Information to Parents
        !        Operate the SDU Through a State Agency or Contractors
        !        Staff SDUs Sufficiently to Perform Required Functions
        !        Automate Procedures as Much as Feasible, Efficient, and Economical
        !        Integrate the SDU with the State’s Automated Child Support System
        !        Monitor SDU Performance

         Several States already had centralized procedures and had to make relatively minor
         changes to meet Federal requirements. In other States, however, local child support
         staff or clerks of court traditionally processed many payments, making centralization
         more challenging. Congress anticipated that some States with reliable local systems
         might be reluctant to centralize. Therefore, PRWORA allowed States to be granted a
         waiver to operate their SDU by linking local disbursement units through an automated
         information network, if the Secretary of DHHS agreed that the linked system would not
         cost more nor take more time to establish or operate than a centralized system.
         However, even when a linked system is used, Congress specified that employers must
         still be given only one location for sending payments within each State. States that
         failed to implement an SDU by their deadline, unless granted a waiver, potentially faced
         stiff penalties, though these have subsequently been reduced.3




SDUs: Experiences of Six States                  1                                    OEI 06-00-00041
         Federal Financial Participation (FFP) is available for administrative expenses of the
         SDU at a rate of 66 percent.4 However, States which choose to process all child
         support payments through their SDU do not receive Federal funds for processing any
         cases not mandated by Federal law. For processing non-public assistance cases,
         SDUs are allowed, but not required, to charge parents processing fees.

         In December 1999, the Office of Inspector General (OIG) received a letter from
         Congressman Bob Clement of Tennessee expressing concern about the effectiveness
         of his State’s new system for collecting and disbursing child support payments. In
         response, the OIG initiated a study of the Tennessee SDU, reviewing 16 cases that
         experienced delayed payments under the new system. Additionally, we surveyed all
         States and undertook an in-depth review of SDU implementation in six States.

METHODOLOGY

         Information in this report comes primarily from interviews of key participants involved in
         SDU operations in six focus States. The six focus States we visited for on-site
         interviews were Arizona, Florida, Iowa, Minnesota, Pennsylvania, and Tennessee.
         These States were chosen to provide variety regarding when centralization occurred,
         and whether the State uses contractors or other partners in payment processing. Iowa
         and Minnesota had a Federal deadline for SDU implementation of October 1, 1998,
         while the other four focus States had an October 1, 1999 deadline. All six focus States
         had some form of local payment processing prior to enactment of the Federal SDU
         requirements. All site visits occurred in February and early March 2000. In each focus
         State, analysts interviewed SDU program managers, SDU information system
         managers, payment-related customer service managers, SDU contractor managers,
         and supervisors of staff that process payments. We also toured the primary SDU
         payment processing facility. Where appropriate, we interviewed at least one
         representative of local entities that were responsible for payment processing prior to
         centralization.5

         Limitations. In conducting this inspection, we did not attempt nor intend to evaluate
         SDU operations. For example, we did not try to measure the relative costs or
         efficiencies of various operational arrangements. We also did not verify the accuracy of
         participant responses. Rather, this report examines the self-reported experiences and
         insights of key personnel having first-hand experience implementing and operating
         SDUs.

         This study was conducted in accordance with the Quality Standards for Inspections
         issued by the President’s Council on Integrity and Efficiency.




SDUs: Experiences of Six States                   2                                    OEI 06-00-00041
                                    FINDINGS

OVERALL ASSESSMENT OF CENTRALIZATION
State Disbursement Unit Implementation Was Often Problematic, But Focus States Now
Report They Disburse Payments Faster and Provide Better Customer Service

         Overall Assessment
         Compared to the methods focus States used to process payments prior to
         centralization, most SDU managers and others who participate in payment processing
         believe SDUs have helped States improve their operations. Respondents generally
         report that payment processing is faster, and that parents can access payment
         information and receive customer service more easily than before centralization. “The
         results have been positive. It's made it easier on employers and custodial parents.
         Overall, centralization and SDUs were good ideas.”

         Startup Problems
         However, respondents from each focus State report that the improvements generated
         by centralized processing were not all realized during the early weeks or months of
         SDU operations. “It was very difficult at the beginning. There were technological,
         mechanical, and political barriers.” Respondents anticipated startup problems, yet were
         often strained to respond to challenges quickly enough to prevent disbursement or
         customer service delays. States report that more difficult problems took weeks to work
         out, and new challenges continually arise.6

         Processing Payments Within Two Days
         Respondents from all focus States report that their SDUs now meet or exceed the
         Federal requirement for processing payments within two business days. “We are
         getting over 99 percent of checks out in one day, now that we are over the hump.” Part
         of the improvement in payment processing speed involves the amount of time previous
         local processors took to disburse payments. “It's a lot faster across the State now.
         There were two local offices before that would only process payments once a week.”
         However, a few managers point out that even though SDUs are processing payments
         within two business days, it may take longer for payments to be received by the SDU
         than by previous local disbursement units. These managers explain that payments
         mailed from rural locations to SDUs located in urban areas often experience postal
         delays. Additionally, some employers apparently hold payments up to seven days, as
         allowed by law, before mailing income withholding payments to SDUs.

         Enhanced Customer Service
         Respondents also generally report improving payment-related customer service to
         parents and local offices. Each focus State now offers 24-hour access to automated
         payment information, as well as call centers staffed by customer service
         representatives during business hours. However, during the early weeks of SDU
         operations, most focus States acknowledge that parents often had difficulty accessing
         payment information or talking to customer service representatives because of
         inadequate telephone systems and under-staffed call centers.




SDUs: Experiences of Six States                 3                                   OEI 06-00-00041
Most Focus State Respondents Report That SDUs Have Eased Employer Burden, But
Employers Must Still Send Payments to Multiple Locations in Some States

         Managers in four focus States report easing employer burden by providing employers
         with a single location to send all child support payments. These States process virtually
         all child support payments through their SDU. “Employers like centralization. A big
         employer could easily be sending 50 or more checks to different counties, whereas with
         the SDU they can send one check. Some still send a separate check for each payment,
         but still have the benefit of sending the checks to one address.” However, two focus
         States report that centralization has not eased employer burden because the SDU
         serves only as one additional location for employers to submit payments. In these
         States, the SDU does not process payments for cases that had income withholding
         ordered before January 1, 1994. Instead, employers must send some payments to the
         SDU and continue to send some payments to local disbursement units.

PREPARATION FOR CENTRALIZATION
Focus State Respondents Said That Forming Planning Workgroups Helped Them Gain
Cooperation to Better Coordinate With Potentially Reluctant Participants

         The Coordination Challenge
         A major challenge to SDU implementation involved coordinating groups of people who
         had not previously worked together on such a major project. Specifically, State child
         support agency staff needed to work closely with contractors, local child support staff,
         and clerks of court, as well as their State legislatures. Program managers from some
         focus States indicate that coordination was complicated because some legislators and
         clerks of court preferred to keep payment processing local, resenting the Federal
         requirement to centralize and automate payment processing. Locally-elected clerks of
         court in one State reportedly also had incentives to resist centralization because they
         collected fairly substantial fees for processing the payments of non-public assistance
         cases and viewed payment processing as a service that helped them garner local
         constituent support.

         Stakeholder Implementation Workgroups
         To ease coordination, focus States established planning workgroups, typically
         consisting of program, policy, systems and customer service managers from the State
         child support agency, local child support staff, clerks of court and their staff, legislators,
         and employers. Workgroups helped draft necessary State legislation, design the
         State’s new processing structure, and determine the logistics of the transition.
         Respondents report that the workgroups helped gain the support of clerks of court and
         local staff by making them part of the planning. “What this created was an environment
         of shared ownership.” To assist their workgroup in preparing for implementation, one
         State’s primary contractor hired a separate national consulting firm to create a planning
         document for the project, a reportedly useful tool for the State’s coordination efforts.
         “The planning document was more readily accepted because it was derived by an
         independent, outside source, rather than by one of the interested parties.”
         Respondents emphasized the importance of workgroups also involving front-line staff
         who processed payments before the SDU, because of their familiarity with clients, case
         information, and previous procedures.




SDUs: Experiences of Six States                    4                                      OEI 06-00-00041
         Risks of Non-Coordination
         While all focus States utilized workgroups at various stages of SDU implementation, some
         did not include all the groups in the early planning, waiting, for example, until implementing
         legislation had been passed. In one focus State, the child support agency developed an
         implementation plan and went directly to their State legislature to seek approval of the
         plan, without involving others, theorizing that because of the Federal requirement, there
         was little need to garner the support of all participants. Respondents from this State
         acknowledge that this approach caused problems for SDU implementation, because all
         parties did not coordinate their efforts.

States Report that Deciding Not to Centralize all Child Support Cases Can Complicate
Disbursement Unit Implementation and Continuing Operations

         Federal law allows, but does not require, States to process payments on all child support
         cases centrally. As detailed in our companion report, 32 States report their SDUs will
         process payments from all types of child support cases, rather than only those required by
         Federal law.7 Three of our focus States have centralized all child support cases, and one
         State goes beyond the Federal requirements by centrally processing all cases with income
         withholding orders, but still processes some non-public assistance cases locally. The other
         two States have centralized only those cases for which the State would receive Federal
         matching funds for processing payments through the SDU.

         Complexities of Partial Centralization
         Respondents report that when all cases are not centralized, employers do not have a
         single location in the State to send all child support payments, a goal that Congress
         enumerated in PRWORA. In States that do not mandate centralized processing of
         payments on cases established prior to January 1, 1994, employers are generally required
         to send most of their income withholding payments to the SDU each pay period, but also
         send some checks to individual local clerks of court for the pre-1994 cases. Additionally,
         when all cases are not centralized, dual structures must be maintained for processing
         some payments locally. The local disbursement unit typically must continue to maintain
         payment processing equipment, bank accounts, post office boxes, and staff dedicated to
         payment processing. Finally, when all cases are not centralized, cases may switch
         between centralized and local processing, such as when parents go on and off of public
         assistance or when a noncustodial parent leaves an employer. “This back and forth
         between us and the clerks, it causes a lot of problems because its hard to determine
         which cases to centralize and which ones to not centralize.” To avoid this problem, one
         focus State instituted a policy wherein once a case was processed through the SDU, it
         would remain with the SDU.

Focus States Report Hiring Contractors For Some Disbursement Unit Functions, Primarily
Because Private Companies Had Experience and Resources Not Available to State
Agencies

         Capitalizing on Contractor Capabilities
         In most focus States, legislatures worked with the child support agency to determine
         whether various functions of the SDU should be operated by State employees or
         contractors. States considered whether the agency had necessary expertise and time to
         establish and operate in-house structures. “Internally, we felt like we simply did not have
         the staff to perform the SDU, but we did do cost analysis. Because of their expertise and
         systems support, some of the private companies would be able to provide better service.


SDUs: Experiences of Six States                    5                                   OEI 06-00-00041
         Also the time frame prompted us. We were working against the clock.” Five of the six
         focus States contract out the receipting function, in which contractors receive, post, and
         deposit child support payments. Use of contractors for receipting largely eliminated the
         need for State agencies to add new staff. “One of the advantages of using a private
         company, is that it’s easier for him to hire staff than for us, because State employees have
         to pass a civil service test, when really all we need is for them to be good at the keypad.”

         Allocating Functional Responsibilities
         Only two focus States chose to make their SDU ‘receipting’ contractor also responsible for
         disbursement. The other States either had laws requiring that only a State agency, such
         as the State Treasury or Comptroller, could issue such checks, or they felt it would be
         more efficient to do this function in-house because the State already owned check printing
         equipment and had experience in the area. Focus States also used contractors for smaller
         aspects of SDU implementation, such as initial mailings to payers. “It is easier to hire a
         contractor than to do it in-house. With the bureaucracy, if we do special mailings in-house,
         we have to pay overtime. With a private company, mailings can be out in a week. It is
         much easier this way.”

In Negotiating With Contractors, Managers Report Benefits from Focusing on Performance
Results, Rather than on Specific Methods of Operations

         Targeting Performance Results
         Focus States which planned to contract out portions of their SDU crafted Requests for
         Proposals (RFPs) that focused on expected performance results, rather than being overly
         prescriptive regarding the specifics of how to achieve those results. States also attempted
         to ensure that RFPs clearly specified the responsibilities of the eventual contractor, as well
         as the measures the State would use to monitor and evaluate contractor performance.
         Managers report that when performance expectations and measures are included in the
         RFP, there are fewer problems later when they are adopted and integrated into the actual
         contract. States also attempted to issue their RFPs early in the planning process to give
         bidders sufficient time to evaluate the project and to devise plans for how to accomplish
         the tasks requested in the RFP. However, some focus States report their RFPs went out
         relatively late in the process, possibly suppressing the number of bids the State received.
         One of these States received only two bids, significantly limiting the choices of their
         contract evaluation team.

         Gauging Contractor Expertise
         In evaluating RFPs, States report primarily considering the bid price and the expertise of
         private companies, with the latter carrying more weight than the former. States typically
         gauged the expertise of a company by deriving a technical score which reflected prior
         experience in child support and payment processing, as well as staffing and other
         resources. “There were not very many people with the resources or the expertise to even
         try to implement our SDU.” Large companies appear to have an advantage over smaller
         companies due to the necessarily heavy investment in payment processing equipment.
         “The smaller contractor had not done a statewide operation before, so they were not able
         to demonstrate a competence and understanding. The larger contractor had a host of staff
         that they could fly in if there was a problem. We had problems with network testing in the
         beginning and the next day a whole planeload of them came in.”




SDUs: Experiences of Six States                    6                                   OEI 06-00-00041
Respondents Report That Contracts Should Include Performance Standards, Incentives,
and Penalties, Not Just Contractor Payment Terms

         Contract Types and Safeguards
         Focus States typically pay SDU contractors a transaction fee for every payment
         processed, or a fixed price for all services. Per-transaction contracts can cause
         contractor revenues to fluctuate, while fixed-price contracts protect States from
         unexpected charges. “We have a fixed-price contract. If the contractor’s costs exceed
         what we contracted to pay them, that is their tough luck. If costs are less, then that is
         their good fortune. They assume the risk, so whatever unforeseen charges they have,
         contractually the State is not responsible.” Focus States included terms in their
         contracts with private companies that allow them to cancel the contract or impose
         penalties in the event the company does not perform up to contract standards. Private
         company SDU managers in focus States report that, while initially equipping, staffing,
         and launching an SDU is costly, their investment is well rewarded in the long run.

         Keys Aims in SDU Contracting
         State project managers identify three critical aspects of SDU contracts: 1) establishing
         a framework for operations that clearly defines the responsibilities of all parties; 2)
         maintaining State control over the functions they are contracting out; and 3) providing
         private companies with incentives to meet performance expectations. Contract
         managers indicate that to maintain control of all SDU functions, some contracts had to
         have special provisions, such as requiring the contractor to report directly to the State
         child support agency. They also might empower the agency with the authority to
         approve or deny the use of individual sub-contractors, as well as the right to terminate
         any sub-contractor based on performance. To ensure quality performance and
         encourage improvement, focus States included both minimum performance standards
         and incentive structures in their contracts. One State structured their SDU contract such
         that the private company did not earn any money until after the SDU was operating
         Statewide for at least thirty days, at which time the contractor received a milestone
         payment. A manager from another State reports dissatisfaction with their initial contract
         because the performance standards were too easily met, and feels the private
         company had little incentive for improvement.

Focus State Respondents Report That Close Coordination with Clerks of Court Was
Essential to Both Initial Transition and On-going Payment Processing

         For States in which clerks of court had previously handled payment processing,
         communication was an important part of implementation. Not only were clerks of court
         involved in the conversion of case information, but they still process some non-public
         assistance cases locally and accept payments at their offices when necessary. SDUs
         must also collaborate with clerks of court regarding cases that leave public assistance.

         Involving Clerks of Court
         Some focus States held workshops for clerks of court as a part of a continuing
         education program. These workshops helped keep clerks of court abreast of the status
         of SDU implementation and changes to their responsibilities. Another State used
         computer based training for clerks of court and local offices, with training on entering
         information about new cases, and entering and retrieving payment information on their
         new automated system. Another State assigned SDU staff to work in clerks of court



SDUs: Experiences of Six States                  7                                     OEI 06-00-00041
         offices during the first few days they were required to use the new automated system.
         While respondents generally report that these efforts were useful, some indicate this
         training was not extensive enough in some places and may have provided inconsistent
         information to different clerks of court. “I went the first day and went back the next day.
         Some of the things that were said the second day were not the same things said the
         first day. So your understanding of what was going to occur depended on which
         workshop you attended.”

Verifying the Completeness and Accuracy of Case Information Was Critical as States
Built and Implemented Their Payment Processing Databases

         Primacy of Data Accuracy
         SDU operations are significantly affected by the quality of available case and payment
         information. To credit a payment to the proper case, SDU automated systems attempt
         to match information provided with payments to case information contained in the
         SDU’s database. Problems with data accuracy affect every aspect of processing, from
         the creation of billing statements to processing and disbursing payments. Not only must
         information accompanying payments be correct, but information in the SDU payment
         database must also be accurate in order to properly match incoming payments. One
         SDU manager maintains that having incorrect information can be worse than having no
         information, because staff will act on the bad information rather than trying to find
         accurate data.

         Constructing New Databases
         Each focus State designed and constructed a new SDU database, typically combining
         information about public assistance cases already stored by the State child support
         agency with information about non-public assistance cases previously stored by clerks
         of court. To prepare and transfer case information to the SDU database, one focus
         State had clerks of court verify their data prior to conversion. Although this State did not
         receive full cooperation from all clerks of court, the method was reportedly very
         effective because local staff were most familiar with their cases and could often
         recognize when information was missing or inaccurate. Another method was to receive
         data from local offices, and verify it by responses to initial correspondence. This
         strategy caused some initial delays in disbursement, but was used by one focus State
         because managers did not believe there was time to conduct local verification. Another
         focus State entered information from local offices and completed the verification
         process at the State level, an effort that took nearly two years.

         Problems Transferring Case Information
         States encountered various problems transferring case information to the SDU
         database. Workers in some States had difficulty determining which cases to convert
         because they had to manually review the original orders to decide when income
         withholding was ordered and only convert those ordered on or after January 1, 1994. A
         manager explains, “We had to go into those paper files in the clerk’s office, read the
         orders, and pick up that income assignment date.” At least occasionally, this resulted in
         workers missing some cases that should have been centralized. Respondents also
         report that local case files did not always include complete information, especially
         Social Security Numbers (SSN) for each of the parties to the case. “When they
         converted, the SSN was missing. This was troublesome for us because, even if a client
         has their case number, they cannot use the automated voice response system if it does



SDUs: Experiences of Six States                   8                                     OEI 06-00-00041
         not recognize their SSN.” Respondents also indicate missing SSNs caused problems
         once centralized processing began because many employers initially only included their
         employees’ SSNs and not the case numbers with payments, so the payments could not
         easily be credited to the proper case when that SSN was not already in the database.
         Yet another problem occurred because conversion in some focus States occurred
         months before SDU implementation, causing conversion efforts to miss recent address
         changes and new cases.

         Quality Checks on Data Accuracy
         To help minimize these problems, focus States report instituting quality checks. A
         manager describes using two levels of quality control, “First, we made sure that we
         were converting the right cases and secondly we made sure they were setting up the
         cases correctly so the money would process automatically.” Another State indicates
         that they quickly worked on any cases with missing information, such as SSN, by
         contacting the parties directly to acquire the information. Another State involved
         parents in checking the data entered through conversion by sending out statements
         detailing the current amount of each case’s current obligation and any arrearages.
         These notices encouraged parents to contact their State agency to question any of the
         information, thereby uncovering many conversion errors.

Most Focus States Used Pilot Projects and Incrementally Implemented Their
Disbursement Units, Allowing Managers to Address Difficulties Promptly

         Five of the six focus States used some form of incremental implementation of their
         SDU, initially processing only a segment of the eventual SDU caseload. Some States
         ran pilot programs, typically by initially notifying payers in only two or three counties to
         begin sending their payments to the SDU. Different methods were used, such as
         phasing in a few counties at a time, either regionally, or based on the size of each
         county’s caseload, or adding interstate cases or cases paid directly by noncustodial
         parents first, then adding cases paid by employers later. Some focus States
         coordinated their case information conversion efforts with their incremental
         implementation by entering data in the SDU from various counties in the same order as
         they later began centralized processing. One State reports adding extra staff on the
         first few days that new groups of cases were added, recognizing that the first payment
         made to the SDU by particular payers would likely require more manual attention to
         properly credit payments to cases.

         Benefits of Incremental Approaches
         Respondents report that incrementally adding cases to the SDU allowed them to solve
         difficulties on a smaller scale, before the problems affected a large number of
         payments. Incremental implementation was also helpful in gauging required staffing
         levels, allowing for initial performance evaluations of private companies, and in making
         technical modifications to State databases, computer software, and processing
         equipment in ways not anticipated during initial planning.

         Disadvantages of Incrementalism
         However, respondents do report some general disadvantages of incremental
         implementation. Managers from two States report that their incremental approach may
         have provided a false sense of security regarding SDU operations because their
         system operated better when processing only a portion of cases than it did when the
         full case load was first added. “When we first started with smaller counties, we did not


SDUs: Experiences of Six States                   9                                     OEI 06-00-00041
         see the level of difficulty until we really basically stress-tested the system.” Another
         problem involves employers who are withholding payments for employees who have
         cases in different counties. Respondents report that some employers either wanted to
         continue sending all checks as they had in the past, or to centralize all their payments
         at once, so they only had to change their payroll software once, instead of multiple
         times based on the SDU’s incremental implementation strategy. To avoid this problem,
         one focus State gave employers the option not to begin sending any payments to the
         SDU until all of their employees’ cases were centralized.

CONTACT WITH EMPLOYERS AND PARENTS
EMPLOYERS

SDU Managers Stress the Importance of Communicating with Employers and Building an
Accurate Employer Database

         Employers play a critical role in child support enforcement by reporting when they hire
         new employees and by withholding income from wages to pay child support.
         Respondents report that coordination with employers was essential to the initial
         success of the SDU because of the large portion of cases processed through SDUs
         which involve income withholding.

         Employer Outreach and Education
         Some focus States mailed one or more letters directly to employers, while others
         contracted with private companies to conduct employer outreach. One State held four
         different employer outreach conferences to communicate the procedures for remittance
         of payments. Several States trained certain staff to handle all calls and inquiries from
         employers to insure provision of consistent information.

         Verifying Employer Information
         In addition to education, some States attempted to obtain or verify information about
         income withholding orders for each employer prior to beginning centralized processing.
         Typically, this involved requesting a list of cases from employers, or sending them a list
         based on information contained in the new SDU database. Managers in these States
         report their efforts helped identify many errors and omissions in the new database. “We
         imported employer information into our database and used it the first day. Some States
         say they don't have the time or capability. But they have to recognize that it's something
         that can slow up the process of implementation.” Respondents note that large
         employers have much greater technological capabilities for transferring information to
         SDUs. “With small employers, it is probably the owner who is doing all the paperwork.
         They don’t want to be bothered and don’t have uniform procedures.” Focus States that
         did not attempt to verify employer payment information prior to beginning centralized
         processing instead built their employer database from information included with
         payments as they came to the SDU. At least two focus States opted for this strategy
         because they did not have sufficient time to exchange correspondence with employers
         prior to implementation.

         Employer Communication Problems
         States report problems initially communicating with employers due to wrong addresses,
         often because the business had recently moved. States also report that some initial



SDUs: Experiences of Six States                 10                                    OEI 06-00-00041
         notices did not go to the correct department within a business, typically because the
         payroll division was not at the same location as the obligors workplace. “You need to
         have the correct address of where that payroll comes from. Large companies have
         payroll offices all over the country.” Respondents speculate that some correspondence
         intended for employer payroll departments was discarded when received by other
         persons within a company, possibly delaying initial use of the SDU by some employers.
         Some States appear to have invested time to obtain correct addresses and re-send
         correspondence, whereas other States only responded with corrective action after
         employers failed to re-direct payments to the SDU.

CUSTODIAL PARENTS

Despite Education About the New Disbursement Unit, Some Custodial Parents were
Reportedly Wary of Centralization

         States attempted to educate custodial parents about changes they should expect due
         to SDU implementation. Staff emphasize that education was critical because some
         parents were “nervous and scared” that the changes would effect their family budgets.
         Although payment time is reportedly faster Statewide, staff suggest that some custodial
         parents felt centralization reduced service because they were used to picking their
         checks up at local offices and could no longer do so. “They were used to one-day
         service. These people just hammered us. They were not tolerant at all.” Some custodial
         parents who had not previously received public assistance did not like receiving checks
         from the State and felt they were being subjected to the stigma associated with welfare.
         “Another barrier here was that customers who were part of the clerk's system [non-
         public assistance] did not want to deal with big State government. They wanted to deal
         with their locally-elected clerks of court.”

NONCUSTODIAL PARENTS

States Encountered Several Obstacles to Effective Communication with Noncustodial
Parents Prior to Centralization and Tout the Importance of Timely, Informative Notices

         SDUs initially communicated with noncustodial parents in ways similar to those used to
         communicate with employers. The primary goals of communication were to instruct the
         noncustodial parent payer to verify case information, to re-direct payments to the SDU,
         and to offer noncustodial parents information, such as customer service phone
         numbers. Some focus States had problems initially getting re-direct notices to all
         noncustodial parents because of wrong addresses, or because out-dated records
         incorrectly listed a payer as employed and paying through income withholding. One
         State reports it sent notices out too early and began receiving payments at the new
         post office box before the SDU was ready to process them. Another State reports
         sending notices out too late, which did not allow enough time to correct addresses and
         send second notices prior to SDU implementation. Managers of one State believe its
         initial notices contained too much information, confusing payers and generating
         unnecessary, excessive phone calls to the State’s customer service staff.




SDUs: Experiences of Six States                 11                                  OEI 06-00-00041
Focus States Keep Noncustodial Parents Informed of Account Balances and Monthly
Obligations by Mailing Regular Statements

         As part of centralized payment processing, all focus States are sending regular
         statements to noncustodial parents. These notices contain such information as the
         amount of the monthly obligation, arrearage balances, fees, interest charges, recently
         credited payments, and notices of changes in child support payment policies or
         operations. States mostly send statements to all noncustodial parents, including those
         with income withholding orders, so that payers can verify that payments were recorded
         properly. Prior to centralization, some noncustodial parents had not received regular
         statements, and many reportedly inquired about or protested balances and charges of
         which they were not aware. The first mailing from SDUs often generated enormous
         payer response, requiring caseworkers to review and adjust a number of case records.
         Respondents report that some of these calls were generated by the statements
         containing inaccurate information, perhaps due to payments being applied to the wrong
         case during the early weeks of centralization. The positive aspect of this was that it
         provided another opportunity to detect misapplied or incorrect payments.

Some Focus States Ease Payment Processing By Sending Noncustodial Parents
Coupons to Return With Their Support Payments

         Two focus States send payment coupons with the billing statement. Respondents
         report that use of remittance coupons by noncustodial parents eases payment
         processing for SDUs because it contains all necessary information needed by the SDU
         for automated processing. These coupons resemble credit card or utility bills, requiring
         payers to return a portion of the statement with their check. Although billing statements
         are usually sent only once a month, payment coupons may be sent as many times per
         month as the court order dictates, whether monthly, bi-weekly, or weekly. Coupons are
         scanned when they come into the SDU with the payment, so that processors
         immediately have all the information they need to credit the payment. However,
         coupons are often not returned with payments. To increase use, one State that
         currently sends coupons plans to make improvements in their structure and format.
         “They’re not very user-friendly. They don’t present themselves as something they need
         to use or is convenient to use. I think we can put some effort into that and increase the
         amount of people that are sending them back.” Some focus States do not use coupons,
         relying instead on automated equipment that reads account information contained in
         the barcode of most checks. “We studied whether or not we should send out coupons
         with a return envelope, but if a noncustodial parent makes one payment on a check,
         then we have that in our database and we can identify any future payments from that
         bank account.”

CUSTOMER SERVICE
To Provide Parents with Payment Information and Handle Complaints, States Provide
Telephone Response Systems, Coupled With Live Customer Service Representatives

         Focus States provide a two-pronged approach to providing parents with customer
         service regarding payment processing. First, all focus States provide access to
         payment information through automated telephone response systems. These
         systems contain receipt and disbursement information about recent child support
         payments processed through the SDU and are designed to be accessed anytime


SDUs: Experiences of Six States                 12                                   OEI 06-00-00041
         through toll-free phone numbers. Second, automated phone systems typically allow
         parents the option of selecting another service, a call center staffed with live customer
         service representatives (CSRs), who are usually accessible during weekday business
         hours.“The SDU call center actually improved customer service because, before,
         centralization customers could only talk to a live rep between 2 PM and 4 PM, whereas
         with the new, single phone number, humans are available between 9 AM and 5 PM.”

         CSRs generally have access to more information than is offered by their automated
         telephone systems. For instance, a telephone system may contain information that a
         disbursement was made for a certain amount on a specific date, whereas a CSR may
         be able to tell a client the address to which the payment was mailed. Managers report
         that CSRs record all communications with clients, making it easier for caseworkers to
         retrieve accurate, up-to-date payment information from their States’ automated
         systems. Managers report cross-training staff in order to maximize resources when
         work flow changes day-to-day. “We put the new staff on the payer/payee lines. If it gets
         more detailed than strictly payment information, new employees may transfer callers to
         more experienced staff.”

         Respondents in focus States also report that call centers provide a quick method of
         identifying cases with problems and areas of potential improvement. One State, for
         instance, instituted weekly meetings in which call center team leaders identify issues
         that need to be discussed with local offices and courts to improve operations. Staff also
         report that call centers can alert local offices to needs of specific clients regarding
         enforcement, and are useful for processing address changes. Some call centers
         provide special telephones lines dedicated to receiving calls from other States,
         employers, local child support staff, or clerks of court. These calls can then be routed to
         CSRs assigned and trained to handle inquiries from specific entities. One focus State
         went further in specializing customer service by creating a separate call center for
         employers.

         In addition to these centralized efforts, local staff and clerks of court continue to provide
         payment information to non-public assistance parents in some focus States. This
         information is either provided in response to a parent’s direct request to the local office,
         or through a referral by a CSR. Referrals generally address enforcement issues or
         other case activities not directly related to payment processing. When local offices
         communicate with parents, they are generally expected to send a description of the
         contact to the call center as a narrative field in the SDU database.

Focus States Experienced Problems in Providing Quality Customer Service During the
Early Weeks of Centralization, Primarily Due to High Call Volume

         Underestimated Call Volume and Staffing Needs
         All focus States report receiving more calls than anticipated to their call centers during
         the early weeks of centralization. This sometimes resulted in unanswered calls, busy
         signals, and long hold times. Respondents primarily attribute excessive calls to the
         SDU’s initial inability to disburse payments in a timely manner. Additionally, some
         State’s report underestimating customer service needs and, therefore, not having
         enough phone lines or staff to handle the volume of calls. One State reports under-
         staffing its call center because the State legislature would only provide funding for a
         smaller call center than managers and contractors projected would be needed. To



SDUs: Experiences of Six States                   13                                     OEI 06-00-00041
         address initial under-staffing, some focus States added more CSR positions, and
         others hired temporary employees to answer simpler calls or to assist CSRs.

         Local Non-Cooperation
         Respondents also report that the action of some local entities unnecessarily added to
         the volume of calls to their call center. For instance, a local clerk of court in one county
         reportedly placed a recorded message on their phone system directing anyone who
         called to dial the call center’s toll-free number, even though many callers had
         enforcement-related inquiries that should have been handled by the local office. This
         resulted in the call center receiving inquiries regarding issues that CSRs could not
         address.

         Technical Problems
         Some staff report that their automated telephone systems did not offer all the
         information they were designed to provide because of problems in linking to the
         underlying case database. Even five months after centralization, one State’s telephone
         system did not include payment information for an entire segment of the SDU caseload.
         Another State only updates case information for portions of the SDU caseload on a
         weekly basis, even though parents may wish more current information. Due to
         conversion problems, some parents could not access their case information because
         the database did not contain their SSN, which some systems use as a password for
         parental access. When these problems occurred, callers either heard a recorded
         message telling them to call back when the system would be available, or routed calls
         to the State’s call center, further adding to the backlog of callers. Also, many callers
         called back multiple times, some apparently after receiving responses to initial inquiries.

         The phone lines for one State’s call center were inadequate and would disconnect
         callers for no apparent reason. The problem was not evident until processing was
         centralized and the volume of calls increased. The State upgraded their phone lines
         one month after beginning SDU operations. Another State’s automated system was
         apparently offline most nights and many other hours during the first three months of
         SDU operations, primarily due to planned downtime for batch processing and Y2k
         preparations, as well as unplanned circumstances. Respondents also report excessive
         response times when CSRs attempted to access information from the State database,
         which was not adequately equipped to absorb the new users.

         Improving Customer Service
         The primary method States used to reduce call center volume was to improve payment
         processing so that payments were disbursed timely. Respondents report that once their
         SDU disbursed almost all payments within two business days, inquiries and complaints
         declined dramatically. One manager explained, “If it's not working properly, then
         everybody's going to press the zero button and you’re going to get more calls than you
         want. If you're behind in processing payments, your call volume just goes right through
         the roof. Once you get that resolved, then the phones calm down.”

         To further improve service to customers regarding payments, respondents suggest that
         States specify performance criteria in their contracts, provide call centers with
         equipment that allows immediate monitoring of customer service calls, and limit call
         center inquiries to only payment processing issues. The rationale for the last




SDUs: Experiences of Six States                   14                                     OEI 06-00-00041
         suggestion is that local caseworkers have the responsibility for taking action on
         paternity and enforcement issues, and therefore, should receive calls regarding those
         issues.

Staffing Customer Service Centers Poses Challenges to States

         Training and Hiring Complexities
         Respondents report that some CSRs did not efficiently provide service to parents
         because of inexperience and lack of training. While all focus States report training their
         CSRs, most also report that learning to navigate their State’s automated system is
         difficult and requires extensive practice for efficient use. Staff suggest that child support
         customer service is more difficult than many other types of call center work because of
         the complex State automated child support systems. They also note that the strong
         economy has made hiring and keeping customer service staff particularly difficult,
         resulting in a high turnover rate among CSRs. One manager argued that private
         companies are better suited than State agencies for operating call centers because
         contractors are more able to reward experienced CSRs for good performance through
         incentive programs. Some managers tried to improve performance by sending CSRs to
         county offices to familiarize them with prior payment processing.

         Effect of Customers on Staff
         Respondents report that the attitude of callers had a strong affect on CSRs, especially
         during the early weeks of centralized processing. Many callers were understandably
         upset about not receiving expected money, and often took their frustration out on
         CSRs. CSRs, reportedly, received numerous calls from irate or hostile parents who
         either had not received their regular child support or who had not been credited with
         making their payments. Another factor was non-public assistance clients who were
         often reluctant to deal with public social service agencies. Some parents, reportedly,
         had initial negative impressions of centralization due to the tone of reporting by mass
         media. Clients may also have been dissatisfied with call center responses because
         they did not initially understand the scope of operations of these units. This
         environment sometimes resulted in trained CSRs quitting, further exacerbating call
         center staffing problems.

PAYMENT PROCESSING
Disbursement Units in Focus States Use Both Manual and Automated Payment
Processing Structures, Both of Which Offer A Means of Improving Service

         Manual Processing
         Smaller focus States mostly rely on manual processes in which staff enter payment
         information into the SDU database using 10-key machines and equipment which scans
         the bank routing codes of checks. Using this process, the bank routing codes allow
         SDU software to automatically display individual case information on the processor’s
         screen, allowing them to check for accuracy and record the payment. If the payer’s
         bank routing code has not previously been scanned into the database, staff search the
         SDU automated system manually to identify the appropriate case, using additional
         information such as name and SSN. Staff then balance groups or “batches” of
         payments using software applications or adding machines to ensure they have
         accounted for all payments and to check for errors.



SDUs: Experiences of Six States                   15                                     OEI 06-00-00041
         Automated Processing
         The largest two focus States use highly-automated processes in which staff use
         scanning equipment to record images of payments, rather than completing data entry.
         The system’s optical character recognition software attempts to use the images to
         identify the payer and payment amount, and automatically post the payment to the
         proper case. Staff make images of all documents received, including actual checks,
         money orders, envelopes, and other communication that payers send to the SDU. A
         manager using this system reports that imaging requires less human attention and
         training, and can process payments faster. “It’s a completely different concept than
         working with the paper.” This method requires multi-million dollar investments in
         hardware and equipment, which may be leased or owned by a contractor, depending
         upon the stipulations of the contract.

         For both of these systems, payments are initially received in mail rooms. Mail room staff
         use machinery to open and sort payments, separating checks from other
         correspondence. Checks are grouped into batches of about 50 payments to make
         imaging and data entry more manageable, and must be balanced as a unit by the
         payment processor. Payments from large employers may be processed separately, as
         might out-of-State checks. A batch number and header form then follows the batch of
         payments throughout the process, allowing for easier handling and tracking. After they
         are entered into the system, using either imaging or manual data entry, payment
         batches are transmitted electronically overnight. The system then credits individual
         payments to cases, goes through the distribution process, updates the case files, and
         creates a check writer file. The check writer files are electronically transmitted to a
         disbursement unit which prints and mails checks to custodial parents.

Staff Involved in Receipting Payments are Typically Divided into Three Groups: Mail
Sorting, Payment Processing, and Research

         Mail sorting staff tend to hold the lowest paid jobs at the SDU, requiring less training
         and fewer technical skills. However, these jobs support a critical aspect of SDU
         operations and require consistency and attention to detail. Mail room staff arrive early
         each day, open and sort mail mechanically, pull out exceptional payments, bundle
         payments for processing, and forward any other documentation received. “We work
         really hard with the mail room to get them to understand that they set the tone of the
         day. If you are slow here, payments are slow to get to the scan room, and then slow to
         get to the processing floor.” To ensure no lost or stolen payments, SDUs typically
         videotape all mail room activities. Only one focus State reported a single incidence of
         theft by an employee since SDU implementation.8

         SDU managers report that payment processing staff, must be highly skilled, with both
         policy and systems knowledge, and must be able to efficiently utilize a variety of
         automated tools. Processors typically receive payments from the mail room and post
         them to the proper case on the SDU database. Fully training processors takes longer
         than some other SDU positions, primarily because it takes time to learn to use the
         State’s child support automated systems. “We can teach the SDU system within a
         couple days, whereas the State’s automated system takes a long time. There are
         hundreds of screens and places to look. New workers are usually processing within two
         days, but it takes a good two weeks or a month before their turnaround gets up.”




SDUs: Experiences of Six States                 16                                   OEI 06-00-00041
         The last group, research staff, use an even greater number of systems and databases
         than processors, and need skills to use these resources in more complex ways. Their
         job is primarily to research payments which processing staff could not match to a case.
         Researchers usually have access to other information resources, such as address look-
         up services and driver license directories, in addition to State child support and SDU
         systems. They also regularly contact employers and local child support and clerks of
         court staff. Research staff may also sometimes handle payment adjustments,
         misapplied payments, interstate cases, overpayments, or payments made with
         insufficient funds.

States Cross-train Staff, and Use Overtime and Temporary Workers to Meet the Varying
Staffing Needs of Disbursement Units

         Adequately forecasting the workload is difficult for SDU managers, especially during
         the initial months of operation, when they often added temporary staff. SDU staff
         typically work five-day weeks, including one weekend day. Hours of work on Monday
         are usually always longer than the rest of the week, and work hours often fluctuate,
         depending on the flow of payments. Staff are allowed to go home early on slower days,
         or reassigned to other tasks when their primary job is complete. Since the SDU’s needs
         change throughout the week, staff are cross-trained, so that a single worker may
         process payments, conduct research, or operate imaging equipment during the same
         week.

         One SDU manager recommends that front-line supervisors be given the authority to
         request overtime on a heavy mail day. “This way, if you’re an hour or two from getting
         things done that day, you can make it pretty informal and just ask who wants overtime
         that night.” This encourages supervisors to complete each day’s payments without
         carrying over into the next day, and likely does not require that all staff work longer
         hours. On busy days, SDU managers and other child support staff may also assist in
         processing payments. “If we have a heavy day like a Monday, we are all out on the
         floor doing data entry. I have told my team from day one that nobody is exempt from
         doing whatever it takes to get the job done.” Managers in one State found benefit in
         using State child support staff for temporary assistance during startup. “It benefitted
         us in the long run, because now the people better understand the automated [payment]
         system.”
         Because most of payment processing is automated, staff can be monitored closely on
         their performance. For example, automated mail sorting machines are able to count the
         number of envelopes processed per hour, just as payment processing software can
         track the number of payments entered or scanned. Managers also compute error rates
         for mistakes such as placing the wrong number of payments in a batch, neglecting to
         identify post-dated or unsigned checks, or posting payments to the wrong case.
         Several focus States had instituted incentive programs for staff which reward them with
         additional pay if their speed is high while maintaining a low error rate.

State Disbursement Units Scan and Store Images of Payment Documents in Order to
Meet Record- Keeping Requirements and to Aid In Researching Unidentified Payments

         Most focus States make images of documents for storage purposes, but some still keep
         paper documents for a period of time. SDUs can store a vast number of document
         images on tape backups, then easily view documents as needed in the future.“Our hard
         drive is large, but eventually you run out of space. Most of this stuff is going to get


SDUs: Experiences of Six States                17                                   OEI 06-00-00041
         accessed within the first 30 days, and you’re not going to go back to it that often. So,
         after about 30 days, we go ahead and burn CDs and clear it off the hard drive.”
         Managers in one State devised an image ‘jukebox’ that contained storage discs and
         could be accessed by staff with only a 60-second delay.

         States also image documents in order to assist research staff in identifying poorly
         labeled payments. With payments that cannot be properly posted, staff use images of
         documents, rather than paper documents, to research the items. These images of
         envelopes, notes and other paperwork may provide clues for matching the payment to
         the proper case. This can be particularly useful when generic money orders are used
         for payments and lack sufficient information. Respondents from one State also report
         using imaged data in performance audits conducted by the child support agency.

         Two focus States do not use imaging equipment, but store paper documents, and
         therefore, attempt to minimize the number of documents retained. “We don’t keep the
         envelope unless it’s a money order or a cashier’s check that we can’t identify right
         away, then we will keep the envelope, because there may be an address on there that
         the State can use to identify.” One manager instructs mail room staff to set aside
         payments for scanning only when there is a difference in the address on the check and
         the return address on the envelope.

Disbursement Unit Managers Recommend Two Strategies to Meet the Complex
Challenges of High Volume Payment Processing

         Managers report that operating an SDU is more complicated than other payment
         receipting operations, such as those for utility bills, because payments of child support
         must be matched to the proper case and the money disbursed to families or the State.
         “With other bills, all they need is your account number and the money. With child
         support, you have to know the dollar amount, the custodial parent’s name, SSNs, the
         obligation date, the case identifier, and all the other things that are in the file.” Although
         child support staff may have long been involved in processing payments at the local
         level, “When you do things in volume, the problems multiply a lot faster.” SDUs are
         under great pressure to process payments quickly, because child support is so
         important to family well-being. Managers report that SDUs are blamed for any number
         of system breakdowns, even those outside of their control, such as slow postal delivery.
         “We take all the heat for delayed payment regardless of what caused it. We were
         having problems and legislative complaints that had nothing to do with the SDU.”

         One general strategy reported by managers is to hold daily meetings that involve
         managers and supervisors of the various parts of the SDU. “We do a roundtable,
         getting statistics on the type of customer service calls from yesterday, the amount of
         mail for the day, and any issues with the network. If it’s a light mail day, we will
         determine how to re-direct staff.” As a second strategy, managers advise addressing
         processing problems immediately when they are detected. “One of our keys to
         success is being pro-active in addressing problems. Processing payments is not rocket
         science, but it takes attention to detail. When there's a problem identified, you have to
         take action before it multiplies.” Addressing specific problems may be most effective
         when done in the context of focusing on the SDU’s primary objective. “There's a
         tendency to focus on all the associated stuff. But if all of your resources go into
         research, for example, you'll never catch up. It will keep building as it goes. Payment



SDUs: Experiences of Six States                   18                                      OEI 06-00-00041
         processing is where you focus the resources. Get the payments out the door. Once you
         do that, everything else fixes itself.”

States Quickly Research Payments That Are Not Initially Identified, Often Resulting in
Timely Disbursement

         Researching Unmatched Payments
         When payments are not immediately posted to a case by the payment processing
         equipment or staff, they are transferred to research staff who have greater access to
         case information and devote time to identifying payments. Payments may also require
         research if the amount of a support order does not match the amount paid. Some focus
         States give contractors a fixed number of days (between two and five) to research
         unidentified payments, after which time the State child support agency takes
         responsibility for further research. Respondents report that many research items are
         properly identified the same day, and are disbursed along with other payments received
         that day, while only a small percentage of payments take additional time to process.

         Identification Tools
         To identify payments, SDU researchers commonly examine checks, envelopes and
         other documents included with payments, and attempt to match one or more items to
         information stored in the SDU database or State automated system. When needed,
         researchers can check old case numbers, driver’s license and birth certificate records,
         and automated telephone directories. Staff can also call parents, local caseworkers, or
         employers to help identify cases, or send notices to payers asking for more information.
         If all these efforts fail, States label unidentified payments as ‘suspense,’ and may only
         periodically continue research. “The reality is that by the time you put it into suspense,
         you are not going to be able to find that guy.” Money orders are particularly difficult to
         research, because they sometimes include only a barely legible signature.

         Undistributed Funds
         Payments not identified quickly are either held as ‘undistributed funds’ or returned to
         the payers. States and SDU contractors have incentives to keep the amount of
         undistributed funds low to meet performance expectations. However, managers report
         they prefer not to return money to payers, because the action runs counter to the
         primary objective of getting money to families. Rather, focus States mostly hold money
         until payments can be posted. “This way, the burden stays here, we have the money
         and once we get the information, we can post. If we sent it back, the custodial parent
         does not have the money.”

Local Offices Continue to Provide Payment Processing Services, Such as Accepting
Some Payments Locally and Assisting in Researching Unidentified Payments

         Local child support offices and clerks of court in focus States continue to accept a small
         number of payments at their offices, such as the first payment on a new case made as
         part of an agreement between parties, or when a judge orders a party to make an
         immediate payment. Local staff generally encourage payers to begin making payments
         to the SDU as quickly as possible, but are willing to collect payments directly. “I don’t
         know of any office that will turn away money.” Clerks of court insist they must continue
         to have authority and procedures for accepting payments, because they are so ordered
         by their courts. As States initially implemented their SDUs, a large number of payers



SDUs: Experiences of Six States                  19                                   OEI 06-00-00041
         continued to send payments to local processors incorrectly. Staff report that some
         payers apparently ignored notices to re-direct payments to the SDU, while others did
         not receive notification, often due to wrong addresses. Local offices also report
         inappropriately receiving payments from local jurisdictions in other States, and having
         difficulty communicating with these local offices to tell them to send payments to the
         SDU. Respondents report that SDUs and clerks of court attempt to notify these payers
         to redirect the next payment. “We had stages. We did the phone calls, then a memo,
         then a phone call again. We worked on these pretty hard. It took longer than I
         expected, but after 8 months, we were down to very few direct payments locally.”

         Payments accepted locally are either sent to the SDU for processing (usually by a
         courier service), or processed locally, with funds transferred to the SDU electronically.
         When clerks of court are the record-keepers for non-public assistance cases, they can
         locally post payments to their State’s automated systems. Respondents report that
         local processing saves time, and reduces risk when payments are made in cash. Since
         courier deliveries arrive at the SDU later than the morning mail, they may not be
         processed until the following day. To avoid such delays, one State encourages the
         courts to fax information about local payments to the SDU, so staff there can post the
         payment for inclusion in the same day’s disbursement cycle. During the first weeks of
         centralization, another State had staff drive around to offices and courthouses in
         nearby counties to retrieve misdirected payments. Some clerks of court reportedly did
         not comply with these efforts. “We had one clerk, in particular, who took the child
         support receipts and walked into a local child support office and dumped them out on
         the receptionist's desk.” Other clerks reportedly returned misdirected payments to
         payers, significantly delaying disbursement to the affected families.

         In addition to handling payments, local staff may also be called upon to update the
         State case database, as they receive information on address and employment
         changes. Some local offices enter information directly into the SDU database, while
         others have systems that interface with the central database. Additionally, some local
         staff help research unidentified payments. “We realized that we still have to develop
         partnerships with the clerks of court and others - that we have a continued partnership.”

To Improve Efficiency, SDUs Are Beginning to Encourage Use of Electronic Funds
Transfer for Support Payments, Particularly From Employers and Other States

         Respondents report that Electronic Funds Transfer (EFT) increases the speed and
         efficiency of SDUs because it directly transfers funds from employers’ accounts to the
         proper State bank accounts, bypassing some steps of traditional SDU payment
         processing. EFT also transfers an electronic data file containing payment and case
         information which can be automatically read into the SDU database. Use of EFT also
         helps SDUs avoid data entry and other processing errors. EFT simplifies payment
         procedures for large companies who withhold income for several employees. However,
         smaller businesses might not realize as many benefits as large companies, and may
         not have the necessary equipment to use EFT.

         Contractors in some focus States are assisting in efforts to increase use of EFT. “When
         we talk with a business about using EFT, we tailor our approach. Medium-size
         employers may not have as much cost savings and may only sign on for convenience.
         It is probably not worth the cost of setting up for small businesses. We have



SDUs: Experiences of Six States                 20                                    OEI 06-00-00041
         collaborated with other States to get large, multi-State employers on board. We target
         employers who poorly label checks or have problematic formats. We also target
         businesses that the county clerks tell us keep sending checks to them. EFT is easier for
         employers. Eventually, when all States are up with EFT, it will really be more
         advantageous to businesses because that will be standard operating procedure.”
         However, a contractor in one State does not get paid for processing EFT payments and
         therefore has little incentive to encourage its use.

         Respondents suggest that some noncustodial parents would also like to set up
         methods to electronically send payments to the SDU. Additionally, focus States are
         beginning to offer automatic withdrawal from payer bank accounts, and some plan to
         establish a method for paying through the Internet. Managers also consider Internet
         pay to be a good option for small businesses, because it is not as complicated as EFT
         and only requires a personal computer and Internet access. Internet payment works in
         essentially the same manner as an automatic withdrawal. “The mechanics of it appear
         quite easy, we just have to look into security issues and figure out how the data would
         flow.”

PROBLEM PAYMENTS AND CASES
         Misapplied Payments
         Child support payments are sometimes posted, or ‘misapplied’, to the wrong case
         because of human or systems errors. Misapplied payments may be caused by simple
         recording or data entry errors, or may be the result of confusion over the support
         obligation. For example, while a noncustodial parent may have two support cases, the
         SDU may attribute the entire payment to only one case. “At least half of our misapplied
         work was within one payer, not across payers.” Particularly complicated are situations
         wherein the noncustodial parent is paying on both a public assistance case and a non-
         public assistance case. SDU managers report advising staff to “watch those cases, and
         help keep the information correct. They are complicated. I would advise that States just
         starting their SDU observe those cases and make sure they split accurately.” Other
         case characteristics might also increase the odds of a misapplied payment, such as
         when a client leaves or returns to public assistance, or when custody of a child
         changes. At least one SDU attempts to avoid misapplied payments by requiring
         processors to match three different pieces of information before posting a payment.
         While this effort slows processing, staff report they, “quickly realized it was better to
         hold a payment than to post it to the wrong case.” Other States attempt to find
         misapplied payments by conducting automatic reviews of cases in which the current
         payment is significantly different from their previous average payment. States also rely
         on customer complaints to help detect misapplied payments. “The best thing about
         processing child support is that someone is expecting it.” When misapplied payments
         are disbursed to the wrong parties, State often have difficulty collecting it back. Some
         State child support agencies had to obtain special legislative permission before they
         could even attempt to recoup these misapplied payments.

         Poorly Labeled Payments
         Managers report that poorly labeled payments, with incorrect or incomplete information,
         cause problems for SDUs. Noncustodial parents sometimes make payments without
         including a case number or other identifying information. States usually send letters to
         payers immediately upon receiving payments without case numbers, informing them
         that they must properly identify the case. “Once somebody gets a letter back saying yes


SDUs: Experiences of Six States                 21                                   OEI 06-00-00041
         we have taken your money but we have not posted your payment, they start to take
         some action.” Letters to noncustodial parents in one State inform the payer that they
         could be held in contempt of court for not properly labeling payments. Unfortunately,
         the correspondence does not always result in assistance from the payer. “I have seen
         letters returned where they will attach the original information from the check stub and
         tape it on there. It is the same garbage information that we got the first time.”
         Employers are also sometimes guilty of poor labeling. Employer checks often include
         multiple payments, and must contain case information for all paying employees. When
         checks from employers are placed in suspense because of a single unidentified
         payment, it often delays disbursement for many more cases.

         Payers with Multiple Cases
         Prior to centralized processing, some noncustodial parents with multiple cases in
         different jurisdictions were able to pay support on one case and not on others, because
         local processors might have been unaware of cases outside their counties. Managers
         report that SDUs correct this inequity by distributing payments across all of the obligor’s
         cases based on State distribution rules. “We believe it is fairer for everyone to get a
         share of the payment.” Despite the apparent fairness of following distribution rules,
         some custodial parents protested the changes because they had previously been
         receiving more support. Noncustodial parents also complained about the loss of control
         over their support payments. Needless to say, some families were delighted to start
         getting money that had previously inappropriately gone to the obligor’s other children.
         One local office manager recommends that States make special notifications to parents
         describing how centralization will likely affect parties to cases with multiple obligees.

         Payments on New Cases
         Because new child support cases originate at the local level, local child support staff
         and clerks of court are responsible for providing new case information to SDUs. In all
         focus States, local staff enter new case information electronically into a shared case
         database which provides information for payment processing. Typically, clerks of court
         enter non-public assistance cases and local child support staff enter public assistance
         cases. SDU managers report that sometimes local staff do not immediately enter case
         information when new support orders are established, causing SDUs to receive a first
         payment for a case before the case information is in the SDU database. These
         payments usually can not be processed and are often listed as undistributed funds.
         Sometimes this occurs because private attorneys are allowed to mail income
         withholding orders directly to employers who begin withholding money immediately. To
         avoid these situations, one State has SDU staff contact local offices or clerks of court
         to prioritize data entry for such cases, which managers report is usually accomplished
         the same day.

         Payments on Interstate Cases
         Respondents report that SDUs may be unaware that some payers in their State also
         have child support orders in other States.9 Therefore, SDUs that receive payments from
         these payers may inappropriately disburse the entire payment to families in their
         caseload, while not sending any money to families in other States. To avoid this
         unintended situation, some SDUs use the Federal Case Registry to identify all obligees
         on a case.

         Interstate cases often require States to forward money and payment information to
         SDUs in other States. However, respondents report no standardized process exists for



SDUs: Experiences of Six States                  22                                    OEI 06-00-00041
         all States to facilitate this transfer. For example, some States may require information
         for processing that is not included in another State’s database. When States collect
         child support for families with cases in other States, they typically combine all payments
         for each State and issue one check to the other State. However, respondents report
         that if even one of these payments cannot be identified, some other States will not
         process any of the payments, but return the large check. Managers also report that
         some other States send individual checks for each interstate case they collect on,
         unnecessarily multiplying the number of checks the receiving State’s SDU must
         process. To address these issues, some focus States designate specialized staff for
         dealing with other States. They often contact other States for information about cases
         and attempt to coordinate payment transfers between SDUs. One focus State made an
         effort to identify all interstate cases during their initial conversion efforts, and staff gave
         them special attention once the SDU received payments on those cases. Another focus
         State concentrated its coordination efforts on border States because they had the most
         interstate payment activity.

         Payments From Federal Agencies
         SDUs in all focus States report receiving a large number of payments from Federal
         agencies, including withheld income from Federal employers, Social Security benefits,
         and Internal Revenue Service tax intercepts. Some respondents report these Federal
         payments are often poorly labeled or incorrectly sent to local offices, causing problems
         for the SDU. Federal checks reportedly provide only the payer’s name, but not other
         necessary information, such as a State case number or SSN of the payer which could
         help the SDU process the payment. Even when the SSN is included, it is often difficult
         to locate on the check and is sometimes buried within longer identification codes. Also,
         some Federal checks, reportedly, do not identify the department or agency of the
         payer. “The problem with U.S. Treasury checks is you often don’t know who it’s coming
         from, particularly if it’s from a branch of the military.” In attempting to rectify these
         persistent problems, some managers report being unable to locate the entity that
         issued the checks, or being told that the Federal government cannot improve payment
         labeling, possibly because of the large number of checks it issues.

         SDU managers also complain that Federal agencies often send checks at the end of
         one month, for the following month’s obligation, potentially causing too many payments
         to be recorded one month and not enough the other month. Depending on the
         circumstances of the case, this could cause families to receive less child support than
         they would have if payments were received in the month owed. At least one focus State
         routinely holds Federal checks until the first day of the month to avoid this problem.

         Checks Returned for Insufficient Funds
         Because SDUs often disburse payments the same day payment is received, any
         checks that are returned for insufficient funds (NSF) or due to stop payment orders
         pose significant problems. Once a payer’s check has been returned or “bounced” by a
         financial institution, SDU staff must adjust the case account and ensure that the system
         does not readily accept future checks from that account. To accomplish this, some
         SDUs assign particular staff to research and handle NSF and other problem checks.
         These workers adjust account balances and flag the case in the automated system for
         special processing of future payments. SDUs attempt to recoup the money from the
         payer, but if they refuse, the State may have to withhold future disbursements from
         families until the balance is paid off.




SDUs: Experiences of Six States                    23                                      OEI 06-00-00041
                          RECOMMENDATIONS

Based on our analysis of the experiences and insights of payment processing participants in
focus States, we make a number of recommendations to State child support enforcement
agencies as they implement and refine their disbursement units. We also recommend action
by the Federal Office of Child Support Enforcement (OCSE) to aid in State implementation and
operation of SDUs.

RECOMMENDATIONS FOR STATES

CENTRALIZE PRE-1994 INCOME WITHHOLDING CASES

         States Should Process All Income Withholding Cases Centrally, Including Those
         Created Prior to 1994, Thereby Providing Employers with a Single Location for
         Sending Payments. Providing employers with a single location in each State to send
         all income withholding payments was enumerated by Congress as a primary objective
         of centralization. Focus States report that central processing of such payments eases
         the burden on employers, minimizes client confusion, allows for a clearer division of
         responsibility between State and local offices, and helps take full advantage of the
         efficiencies and economies of centralization by maximizing use of automation.
         However, some States continue to use local payment processing for cases with income
         withholding initially ordered prior to January 1, 1994, requiring some employers to send
         payments to multiple locations within the State.

CONSIDER CENTRALIZING ALL NON-WITHHOLDING CASES

         States Should Assess the Benefits of Processing All Child Support Cases
         Centrally, to Maximize Use of SDU Staff and Equipment. Respondents from focus
         States report that SDUs speed payment processing and improve customer service,
         relative to local processing. Many States have used their discretion to require all
         payments, not only those required by Federal law, to be processed centrally, thereby
         spreading these positive outcomes to all families with child support orders. Centralizing
         all payments may also increase efficiency by taking greater advantage of SDU
         infrastructure.

EMPLOY INCREMENTAL IMPLEMENTATION

         States That Have Not Yet Fully Implemented Their SDU Should Consider Using
         Pilot Programs and Other Incremental Implementation Methods. Focus States
         report numerous advantages of using pilot programs and incrementally implementing
         centralization. These advantages include an enhanced ability to insure accurate and
         complete databases, address technical challenges, and train staff. States that have not
         begun centralized processing, or that still need to add large groups of cases to their
         SDU caseload, should consider utilizing these methods when practical.




SDUs: Experiences of Six States                 24                                    OEI 06-00-00041
PROMOTE USE OF ELECTRONIC PAYMENT METHODS

         States Should Actively Promote Use of Electronic Funds Transfer (EFT) by
         Employers and Other Payers When Practical and Beneficial. Focus States consider
         increased use of EFT by employers as an important goal of on-going SDU operations.
         Widespread use of EFT, particularly by large employers, potentially benefits the SDU,
         employers, and parents, by reducing human error and further speeding transmission of
         payments. States should actively engage in employer education, helping to promote
         use of EFT among employers. They should also collaborate with other States to
         increase use of EFT by multi-State employers.

EXPLOIT SDU INFORMATION TO ENHANCE ENFORCEMENT

         States Should Develop Strategies to Routinely Use SDU Payment Information to
         Aid in Support Enforcement. Highly automated SDUs are able to track payment
         activity on individual cases that can potentially be used to identify cases which may
         need enforcement action, such as cases that have recently had disruptions in payment
         trends. SDUs in focus States are apparently not sharing such information with their
         enforcement staff in any consistent or routine ways. States should develop and
         implement methods for routinely notifying enforcement staff of payment interruptions,
         such as automated flags that trigger alerts to local caseworkers.


RECOMMENDATIONS FOR OCSE

ENCOURAGE IMPROVED PERFORMANCE BY FEDERAL GOVERNMENT PAYERS

         OCSE Should Collaborate With States to Encourage Federal Government Payers
         to Improve Payment Labeling and Submission Practices. SDU managers in focus
         States cite particular difficulties processing checks issued by Federal agencies. They
         report Federal checks often contain inadequate or confusing information, are
         sometimes sent to the wrong location, and may be submitted too early to allow proper
         disbursement to custodial families. OCSE should collaborate with States in
         communicating and working with Federal employers to overcome these problems.

PROVIDE TECHNICAL ASSISTANCE ON INTERSTATE PAYMENT PROCESSING

         OCSE Should Provide Additional Technical Assistance to States to Aid in the
         Transmission of Payments for Interstate Cases. SDU managers in focus States
         report unique difficulties in processing payments for interstate cases, particularly SDUs
         being unaware that obligors have cases in other States and the lack of any standard
         procedures for transferring money and payment information between States. OCSE
         should further assist States in developing new solutions or using available technologies
         to share case information between States, and help develop and implement uniform,
         automated standards for transferring money and payment information.




SDUs: Experiences of Six States                 25                                    OEI 06-00-00041
CONSIDER FEDERAL FUNDING FOR PROCESSING PRE-1994 INCOME WITHHOLDING
CASES

         To Help States Meet the Congressional Goal of Providing Employers With A Single
         Location in Each State to Send all Child Support Payments, OCSE Should
         Consider Proposing Legislation to Provide States with Federal Matching Funds to
         Centrally Process Payments for Income Withholding Cases Created Prior to 1994.
         As detailed above, there are numerous benefits to payers and the State when all
         income withholding orders are processed centrally. Additionally, providing employers
         with a single location to send payments was a primary objective of Federal law. Federal
         matching funds are currently not available for non-public assistance income withholding
         cases created prior to 1994. In response, some States are still processing these cases
         locally. This requires employers to continue sending payments to multiple locations,
         and managers in focus States report that it also causes confusion among payers, local
         offices and SDUs.

AGENCY COMMENTS

         The Administration for Children and Families (ACF) agreed with the findings and
         conclusions presented in these two reports. ACF concurred with each of the
         recommendations directed to OCSE and recounted its efforts to assist States with SDU
         implementation. ACF also expressed a desire to collaborate with the OIG in quickly
         disseminating to States the information provided in these reports. ACF comments are
         provided in their entirety in Appendix A.




SDUs: Experiences of Six States                26                                   OEI 06-00-00041
                                        ENDNOTES

1.Social Security Act, Title IV-D, SEC. 454B [42 U.S.C. 654b].

2.The required caseload includes all public assistance cases, plus non-public assistance cases
requesting services and those cases with income withholding ordered on or after January 1,
1994.

3.OCSE Action Transmittal 00-03, January 19, 2000.

4.States can receive enhanced FFP at 80 percent for some of their PRWORA-related
expenses. If a State has not already used all of their enhanced funds, SDU development costs
could be matched at the higher rate, but operational costs are limited to 66 percent.

5.We interviewed local clerks of court in Arizona, Florida, Iowa, Pennsylvania, and Tennessee.
In Minnesota, we interviewed local child support office staff.

6. Because its SDU initially had so many undistributed payments, the legislature in one focus
State gave the child support agency authority to send interim payments to families that
appeared to have missed their regular payments due to SDU implementation. On a daily basis,
State agency staff compared undistributed payments being held by the SDU to complaints
from custodial parents about not receiving payment. Workers attempted to match a complaint
with an undistributed payment. If a definitive match was found, payment was posted to the
case and the funds were disbursed. If a match was not found, but it appeared that the family
had been receiving regular payments prior to the SDU implementation, the State issued an
emergency interim payment to the family and continued researching the case. The customer
service unit reports receiving over 9,000 requests for interim payments, some of which may
have been duplicate requests from the same custodial parent. The State issued about 3,900
interim payments during the first four months of SDU operations.

7.Child Support Enforcement State Disbursement Units: State Implementation Progress
OEI 06-00-00041, pg 5.

8.This was a case in which an employee stole money orders.

9.OCSE estimates that about 30 percent of all child support cases in the nation are interstate
cases.




SDUs: Experiences of Six States               27                                   OEI 06-00-00041
APPENDIX A   A - 1

APPENDIX A                                                       A-2

COMMENTS OF THE ADMINISTRATION FOR CHILDREN AND FAMILIES ON THE

OFFICE OF INSPECTOR GENERAL'S DRAFT REPORTS: "CHILD SUPPORT

ENFORCEMENT STATE DISBURSEMENT UNITS, STATE IMPLEMENTATION

PROGRESS" (OEI-06-00-00040) AND "CHILD SUPPORT ENFORCEMENT STATE

DISBURSEMENT UNITS, SHARING THE IMPLEMENTATION EXPERIENCES OF SIX

STATES" (OEI-06-00-00041)


The Administration for Children and Families (ACF) does not

disagree with the findings and conclusions of these two draft

reports. ACF welcomes the efforts of the Office of Inspector

General to examine this critical area of activity. These reports

-- especially the one that recounts the experiences of six States

-- may be directly helpful to those States that have not yet

completed the implementation of their State Disbursement Units

(SDUs). ACF intends to cooperate with the OIG in disseminating

these reports to the States as soon as they are available in

final form, in the expectation that the sooner States have an

opportunity to review the reports and incorporate their

experience, the greater is the likelihood that they will be able

to benefit from the reports' findings.


The Office of Child Support Enforcement (OCSE) within ACF has

worked extensively with both States and employers to assist in

the implementation of SDUs. This work has been done by Central

Office staff and, to a large extent, by Regional Office staff. 

For example, OCSE has administered several technical assistance

efforts to improve SDU operation. Workshops -- often featuring

State representatives -- were held at conferences to discuss

State implementation issues. A technical assistance guide,

developed with the assistance of both Federal and State staff,

was distributed to all the States. The guide focussed on

critical considerations in planning an SDU, and in preparing a

Request for Proposal for centralized processing of child support

payments. 


In addition, ACF maintains a matrix of SDU program and system

contacts. The matrix includes such data as "contact" information

as well as the status of each State SDU and whether the function

is performed by the State or contracted out. This information is

distributed to all States and displayed on the OCSE website. 


The employer services staff within OCSE works directly with

national employer groups to assist States and to resolve SDU-

related problems, and they work directly with Federal agency

payroll officials, as described below in response to the

recommendation regarding Federal government payers.

APPENDIX A                                                    A-3

OIG Recommendations


OCSE Should Collaborate With States to Encourage Federal

Government Payers to Improve Payment Labeling and Submission

Practices. SDU managers in focus States cite particular

difficulties processing checks issued by Federal agencies. They

report Federal checks often contain inadequate or confusing

information, are sometimes sent to the wrong location, and may be

submitted too early to allow proper disbursement to custodial

families. OCSE should collaborate with States in communicating

and working with Federal employers to overcome these problems.


ACF Response


ACF agrees with this recommendation. ACF is planning a

publication that will add to its ongoing activities to improve

federal check labeling and processes to assist State SDUs. A

number of Staff of the Office of Child Support Enforcement (OCSE)

within ACF have provided technical assistance to SDUs through the

Federal Agency Initiative. The Federal Agency Initiative at OCSE

is an effort to respond to SDUs' requests for help. They are

asking for help both in re-directing child support payments from

Federal agencies, and in identifying the payer or the case with

which Department of the Treasury child support payments (paper

checks) should be associated.


ACF is completing a publication entitled Working with Federal

Agencies as Employers, which will be sent to all States. This

publication will include detailed information on sending income

withholding orders to Federal agencies, re-directing child

support payments from Federal agencies to SDUs, identification of

Treasury checks, and moving toward electronic child support

payments (EFT/EDI).


ACF's activities on behalf of States and their SDUs have included

the following specific Federal agency efforts:


Defense Finance and Accounting Service or DFAS:


OCSE negotiated with DFAS to name two points-of-contact within

the DFAS Garnishment Department for States to contact for re-

direction of all DFAS child support payments (and spousal support

if appropriate) to SDUs. This information was sent to all States

in a Dear Colleague Letter dated April 26, 2000.


In addition, OCSE worked out a process for re-direction of DFAS

(and other Federal agency) child support payments to SDUs as

follows:

APPENDIX A                                                    A-4

DFAS sends the State a file of all child support payments

currently being sent to that State. The State reviews the file to

make certain that each payment should indeed be re-directed to

the SDU. This also gives the State an opportunity to make

changes (e.g., to the case ID by adding a FIPS code or other

county identifier to the payment record).

The State returns the file to DFAS, and DFAS makes the necessary

changes to re-direct the child support payments to the SDU.


Social Security Administration (SSA) and Department of the

Interior


OCSE worked with the Social Security Administration (SSA) to re-

direct its employees' child support payments to SDUs. Payroll

for SSA is handled by the Department of the Interior. Re-

direction of child support payments (and spousal support where

appropriate) from SSA employees was completed on February 23,

2000. 


OCSE has also been working with staff at the SSA Beneficiary

Garnishments Operations, who have the responsibility for re-

direction of beneficiaries' garnishment child support payments. 

SSA designated a contact at each of the eight payment processing

centers for States to work with in re-direction of SSA

beneficiary garnishment payments to SDUs.


U.S. Postal Service (USPS): 


OCSE has worked closely with the USPS as it re-directs child

support payments to the SDUs. As a result, the USPS has begun a

pilot project to send child support payments electronically via

electronic funds transfer/electronic data interchange (EFT/EDI)

to eight SDUs.


Department of the Treasury


OCSE worked with the Department of Treasury's Financial

Management Service (FMS) to produce a memo, issued in March 2000,

reminding Federal payroll agencies to include certain standard

identifying data elements on the child support payments they

prepare. This is an effort to reduce the number of unidentified

Treasury checks (which sometimes become undistributed

collections).


OIG Recommendation


OCSE Should Provide Additional Technical Assistance to States to

Aid in the Transmission of Payments for Interstate Cases. SDU

managers in focus States report unique difficulties in processing

payments for interstate cases, particularly SDUs being unaware

APPENDIX A                                                    A-5

that obligors have cases in other States and the lack of any

standard procedures for transferring money and payment

information between States. OCSE should further assist States in

developing new solutions or using available technologies to share

case information between States, and help develop and implement

uniform, automated standards for transferring money and payment

information.


ACF Response


ACF agrees that additional technical assistance is needed by

States and their SDUs, and has plans in place to provide

additional assistance. These plans include the dissemination of

these OIG reports, especially the Six State report, and the

conduct of national technical assistance activities on this

subject, for the benefit of State staff who manage and oversee

SDUs. OIG staff will be invited to participate in these

activities, to present on the information and conclusions of

these reports, to discuss the lessons these reports offer, and to

respond to questions from the field. Moreover, ACF will begin

working with representatives of State SDU's to identify specific

issues requiring technical assistance.


OIG Recommendation


To Help States Meet the Congressional Goal of Providing Employers

With a Single Location in Each State to Send all Child Support

Payments, OCSE Should Consider Proposing Legislation to Provide

States with Federal Matching Funds to Centrally Process Payments

for Income Withholding Cases Created Prior to 1994. As detailed

above, there are numerous benefits to payers and the State when

all income withholding orders are processed centrally. 

Additionally, providing employers with a single location to send

payments was a primary objective of Federal law. Federal

matching funds are currently not available for non-public

assistance income withholding cases created prior to 1994. In

response, some States are still processing these cases locally. 

This requires employers to continue sending payments to multiple

locations, and managers in focus States report that it also

causes confusion among payers, local offices and SDUs.


ACF Response


ACF acknowledges that providing employers with a single location

to which payments would be sent was a central objective of

Federal policy when the SDUs were first required by law. ACF

will consider this recommendation of the OIG as it develops the

next President's Budget and the next set of legislative

proposals.

